                                                          IG-02-028




AUDIT
                            SPACE LAUNCH INITIATIVE: PRIMARY
REPORT                     REQUIREMENTS FOR A 2ND GENERATION
                                REUSABLE LAUNCH VEHICLE

                                     September 30, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

DOD            Department of Defense
FY             Fiscal Year
NPG            NASA Procedures and Guidelines
OMB            Office of Management and Budget
RLV            Reusable Launch Vehicle
SLI            Space Launch Initiative
                                  September 30, 2002

W

TO:           R/Associate Administrator for Aerospace Technology
              AE/Chief Engineer
              MSFC/DA01/Director, Marshall Space Flight Center

FROM:         W/Assistant Inspector General for Audits

SUBJECT:      Final Report on Audit of the Space Launch Initiative:
              Primary Requirements for a 2nd Generation Reusable Launch Vehicle
              Assignment Number A-01-049-00
              Report Number IG-02-028


The subject final report is provided for your information and use. Our evaluation of your
response has been incorporated into the body of the report. We consider management’s
proposed corrective actions responsive. The recommendations will remain open for
reporting purposes until corrective actions are completed. Please notify us when actions
have been completed on the recommendations, including the extent of testing performed
to ensure corrective actions are effective.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Dennis E. Coldren, Program Director, Space
Flight Audits, at (281) 483-4773, Ms. Clara L. Seger, Program Manager, at
(321) 867-4715, or Mr. James W. Linville, Auditor-in-Charge, at (256) 544-0971. The
final report distribution is in Appendix H.


[original signed by]
Alan J. Lamoreaux

Enclosure

cc:
HQ/AI/Associate Deputy Administrator
HQ/B/Acting Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/JM/Director, Management Assessment Division
                                                                                       2
                            NASA Office of Inspector General

IG-02-028                                                                       September 30, 2002
 A-01-049-00

                            Space Launch Initiative:
                           Primary Requirements for a
                        nd
                       2 Generation Reusable Launch Vehicle

Introduction

The Space Shuttle is America’s first-generation reusable launch vehicle (RLV) and has
been NASA's primary launch vehicle for access to space for the last 20 years. The
Shuttle currently requires a significant portion of NASA’s resources (about 22 percent of
the $14.9 billion budget for fiscal year (FY) 2002), limiting the Agency’s ability to
pursue other initiatives in scientific exploration and development of space. In 1994, the
President issued the National Space Transportation Policy that made NASA responsible
for developing the technologies needed to build an RLV that would not only reduce the
cost of access to space but also provide increased safety and reliability.

In 1999, NASA developed the Integrated Space Transportation Plan (Transportation
Plan), the long-range investment strategy for the Government to accomplish its mission
objectives. The Transportation Plan consists of three major programs: Space Shuttle
Safety Upgrades; the Space Launch Initiative (SLI), also called the 2nd Generation RLV
Program (Program);1 and the 3rd Generation RLV Technologies and In-Space
Transportation System. The Transportation Plan’s comprehensive approach is based on
national space policies, NASA’s industry-led Space Transportation Architecture Studies
conducted from 1998 through 2000, and lessons learned from various experimental
technology demonstrators.2 The 2nd Generation RLV Program currently represents an
investment of about $4.85 billion for FY’s 2001 through 2006.

The overall objective of the audit was to evaluate SLI planning and management. This
report identifies a condition regarding determination of primary (Level 1)3 requirements
for the 2nd Generation RLV Program, which warrants timely action by NASA.




1
  The SLI originally included all of the experimental vehicle programs (for example, the X-33, X-34, and
X-37 Programs) and the 2nd Generation RLV Program. NASA cancelled the X-33 and X-34 Programs and
incorporated the X-37 Program into the 2nd Generation RLV Program, which now represents the SLI.
2
  NASA initiated the DC-XA, X-33, X-34, and X-37 technology flight demonstrators from 1994 through
1999. The DC-XA crashed in 1995 during flight tests. NASA cancelled the X-33 and X-34 Programs in
March 2001 after spending more than $1 billion and concluding that the programs would not provide
sufficient contributions to SLI technology requirements to justify their cost.
3
  Level 1 requirements specify a capability or characteristic the system or architecture must have to meet
clearly defined needs.
We will address other SLI issues in subsequent audit reports. Details on the objectives,
scope, and methodology are in Appendix A. A summary of prior audit work that relates
to the SLI is in Appendix B.

Results in Brief

NASA approved the Level 1 requirements for the 2nd Generation RLV Program without
properly validating them, that is, NASA did not substantiate or verify that the
requirements were appropriate and viable. As a result, the requirements, in particular
those for safety and affordability, may not be valid or achievable. Invalid or
unachievable Level 1 requirements can jeopardize the development of appropriate
lower-level requirements, cause an inappropriate architecture selection,4 lead to cost and
schedule growth, and produce a launch vehicle that is not commercially viable.

Background

The NASA Office of Aerospace Technology manages the Agency's space transportation
initiatives aimed at reducing the cost and improving the safety and reliability of access to
space. Marshall Space Flight Center (Marshall) heads the 2nd Generation RLV Program
with support from other NASA Centers. In February 2000, the Associate Administrator
for Aerospace Technology approved the formulation process5 for the 2nd Generation RLV
Program. The overall goal of the Program is to substantially reduce technical and
business risks associated with developing safe and reliable RLV’s and providing
affordable launch operations.

The 2nd Generation RLV Program follows a three-part strategy:

    •   Invest in technology development to provide needed technologies, and reduce
        risks in order to enable full-scale development of any new systems (FY’s 2001 -
        2005).

    •   Select a vehicle architecture and decide whether NASA will implement full-scale
        development of a 2nd Generation RLV (FY 2005).




4
  NASA will select an approach, or architecture, for providing launch and in-space propulsion to meet space
transportation requirements. The architecture is an integrated set of segments: Earth-to-orbit and on-orbit
vehicles, mission planning capability, ground and flight operations, and ground-based and on-orbit support
infrastructure.
5
  All NASA programs use a process called formulation to demonstrate readiness to begin implementation.
Formulation is an iterative activity rather than a discrete set of linear steps. Formulation starts with
customer requirements, strategic planning goals and objectives, and an authorization to begin the process,
which is evidenced in the formulation authorization document.

                                                    2
    •    If the Agency decides in FY 2005 to implement full-scale development
         (FY’s 2005 - 2010), then produce an operational 2nd Generation RLV by
         FY 2010.6 If not, at the end of the current formulation phase, the 2nd Generation
         RLV Program could continue formulation, be restructured, or terminated.

Through the Program, NASA leads a team that includes the Department of Defense
(DOD), primarily the U.S. Air Force, the aerospace industry, and academia to develop
viable system architectures and technologies based on clearly defined system
requirements.7 An integral step in developing the architectures and technologies is the
development of Level 1 requirements that reflect general launch needs that the 2nd
Generation RLV is intended to satisfy. These requirements are derived from an
understanding of NASA, DOD, and commercial mission needs and from deficiencies in
the existing fleet of launch vehicles. System deficiencies include inadequate space
transportation system safety and reliability and excessive space transportation user costs.

From the mission needs and system deficiencies, NASA developed the 2nd Generation
RLV Program Level 1 Requirements Document (MSFC-RQMT-3221),
September 4, 2001,8 which identifies the capabilities or characteristics the architecture
must have to meet mission needs. Those requirements form an integral part of activities
including systems engineering, analyses, and trade studies in accordance with the 2nd
Generation RLV Program Plan. Appendix C shows an excerpt of the Government
Level 1 Requirements Document. The Government requirements, including
requirements for safety (loss of crew of 1 in 10,000 missions) and affordability ($1,000
per pound to low-Earth orbit), currently reflect only NASA requirements. DOD
requirements may be added in the future. The document does not include commercial
Level 1 requirements because of proprietary and/or competition-sensitive concerns.9




6
  The decision to implement full-scale development has slipped to late FY 2006. Also, initial operational
capability is no longer planned for 2010 but rather for early in the next decade.
7
  In February 2002, NASA and the Air Force concluded a joint Space Launch Requirements Study to
determine how they could best coordinate efforts to meet their respective needs for a new generation of
reusable launch systems. Marshall officials stated that, based on initial study results, the Air Force is not
only reviewing available funding but is also considering establishing a program office similar to NASA’s
2nd Generation RLV Program. As of September 2002, the Air Force and NASA were still exploring and
pursuing alternatives for jointly developing a next generation RLV. The study results and future Air Force
and NASA decisions based on the study could have a significant effect on NASA’s current Level 1
requirements.
8
  The Associate Administrator for Aerospace Technology approved the Level 1 Requirements Document on
November 6, 2001.
9
  Agency strategic planning has anticipated private ownership and operation of the next generation RLV,
with NASA as a paying customer, but the feasibility of a commercial RLV depends on factors such as
annual launch rate and market competition. These factors may not be addressed by NASA's Government
requirements.


                                                     3
Validity of Level 1 Requirements
Finding. NASA approved the Level 1 requirements for the 2nd Generation RLV Program
without properly validating them, that is, NASA did not substantiate or verify that the
requirements were appropriate and viable. Validation has not occurred because the
Agency had not established guidance to ensure that the proposed requirements were
validated prior to approval. In addition, some Agency officials viewed the requirements
as distant objectives (stretch goals10) that would be refined over time rather than
mandatory thresholds. Consequently, the approved requirements may not be valid or
achievable. In particular, several NASA groups11 have questioned the validity and
achievability of the requirements for safety (loss of crew of 1 in 10,000 missions) and
affordability ($1,000 per pound to low-Earth orbit). Invalid or unachievable Level 1
requirements can jeopardize development of appropriate lower-level requirements, cause
an inappropriate architecture selection, lead to cost and schedule growth, and produce a
launch vehicle that is not commercially viable.

Guidance for Establishing Requirements

Office of Management and Budget (OMB). OMB’s 1999 guidance12 for NASA’s
FY 2001 budget included recommendations for the 2nd Generation RLV Program. The
guidance states that NASA’s requirements could make or break the affordability and
commercial compatibility of new systems. Therefore, OMB placed a high priority on
NASA’s ensuring that premature requirements did not make final launch architecture
options incompatible with the commercial market or affordability to NASA. According
to OMB, trade studies13 and independent evaluations were vitally important to
differentiate between firm requirements and potential needs that could be pursued at a
later time or in a different way. OMB strongly recommended that NASA use its
contractors to perform trade studies and that NASA seek an external, independent review
to help validate requirements before making final determinations.

NASA Guidance. NASA Procedures and Guidelines (NPG) 1000.2, “NASA Strategic
Management Handbook,” February 2000, states that the NASA Strategic Plan articulates
the Agency’s vision, mission, goals, and objectives. The Strategic Plan gives direction to




10
   The Aerospace Technology Enterprise Strategic Plan, April 2001, states that the goals and objectives
presented in the plan “stretch” beyond what is possible today, forcing the Agency to look beyond
conventional concepts and evolutionary technologies.
11
   The NASA groups that questioned the requirements included the Office of Aerospace Technology, the
Space Transportation Subcommittee of the Aerospace Technology Advisory Committee, and Program staff.
12
   This guidance known as a “passback” is OMB's December 6, 1999, response to NASA on the Agency's
FY 2001 budget submission.
13
   Trade studies, a critical part of the systems engineering process, support decision makers by analyzing
alternatives available to program/project managers and attempting to find solutions/designs that provide a
better combination of cost and effectiveness. Thus trade studies provide an objective foundation for the
selection of one or more approaches for the solution of an engineering problem.

                                                    4
the work of all NASA organizations and employees. The NPG assigns Enterprise14
Associate Administrators the responsibility for establishing objectives, requirements, and
metrics for Agency programs.

NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
April 3, 1998, governs formulation, approval, implementation, and evaluation of all
NASA programs and projects and assigns the following responsibilities:

     •   Associate Administrators are responsible for establishing Enterprise strategy,
         formulating programs, defining customer requirements and objectives, and
         recommending Lead Center assignments.

     •   Lead Center Directors have full program management responsibility and
         authority. Lead Center Directors delegate program management responsibility to
         program managers.

     •   Program managers are responsible for the total range of program activities
         including supporting the development and definition of detailed requirements.

The NASA Systems Engineering Handbook, Special Publication-6105, June 1995,
provides guidance on performing systems engineering and addresses the development of
mission needs statements and top-level requirements. The Handbook emphasizes the
importance of selecting appropriate program/project requirements and thereby avoiding
the acceptance of requirements that cannot be met and the selection of design concepts
that cannot be built, tested, maintained, and operated.

Sufficiency of Support for Requirements

The 2nd Generation RLV Program Office obtained the Marshall Center Director’s
approval for the proposed Level 1 requirements and submitted them for final approval to
the Associate Administrator for Aerospace Technology, who approved the requirements
on November 6, 2001. However, neither the Marshall nor Headquarters officials had
performed studies or analyses that supported the validity or appropriateness of the
approved Level 1 safety and affordability requirements. Office of Aerospace Technology
officials stated that program analysts were not available to perform the necessary analysis
of the operational cost requirement ($1,000 per pound) and other requirements when the
officials were reviewing and approving the Level 1 requirements. In addition, contractor
trade studies did not provide anticipated documentation to support the validation or
revision of the existing requirements.

Program officials expected contractor trade studies to provide sufficient analytical
support to enable further refinement of program requirements. The Agency issued

14
  NASA conducts its programs through five Strategic Enterprises that constitute NASA’s primary mission
areas: Space Science, Earth Science, Biological and Physical Research, Human Exploration and
Development of Space, and Aerospace Technology.

                                                   5
NASA Research Announcement 8-27 on March 7, 2000, and subsequently awarded
contracts totaling about $18 million for the trade studies. The announcement solicited
proposals that were to be initiated in FY 2000 as the first step in defining system
requirements to meet the stated safety and cost goals. In addition, the proposals were to
identify and commence initial risk reduction activities, such as technology demonstration.
NASA expected those activities to ultimately enable a decision on the initiation of full-
scale development of a 2nd Generation RLV architecture. Program officials stated that
the contractors provided input on risk reduction activities as requested in the
announcement, but the contractors did not provide sufficient documentation to support
the validation or revision of the existing requirements.

Safety and Affordability Goals

The approved Level 1 safety and affordability requirements for a 2nd Generation RLV are
essentially a restatement of the goals/requirements contained in the NASA and
Aerospace Technology Enterprise Strategic Plans,15 and other Agency documents.
Appendix D explains the origin of the strategic goals, specifically: (1) achieve a
probability of loss of crew for the total flight profile of a mission equal to a probability of
1 in 10,000 or less, and (2) deliver payloads into a low-Earth circular orbit with a
recurring operational cost of $1,000 per pound or less. 16

Although Level 1 requirements should specify a capability or characteristic the system or
architecture must have to meet clearly defined needs, some Agency officials viewed the
approved requirements as distant objectives (stretch goals) that would be refined over
time rather than as mandatory thresholds. Management stated that milestones in the
2nd Generation RLV Program Integrated Master Schedule would facilitate further
refinement of the requirements. These milestones include the initial architecture
technology review in March 2002, the system requirements review in October 2002, and
the nonadvocate review17 tentatively scheduled for March 2003.


15
   NASA established a Strategic Management System to provide the information and results to fulfill the
requirements of the Government Performance and Results Act of 1993. The system includes the NASA
Strategic Plan, which defines Agency missions and goals. NASA’s five Enterprises also developed
strategic plans to convey their unique strategic goals, objectives, and implementing strategies to address the
requirements of the Agency’s primary customers. These customers include the science and education
communities, aerospace and non-aerospace industries, Federal agencies, and others.
16
   The probability of a loss of crew on the Space Shuttle (entire mission profile) is currently about 1 in 265
missions, and planned additional safety upgrades are expected to improve the probability to about 1 in 400
missions by 2006. The goal for loss of crew of 1 in 10,000 missions is a 25-fold improvement from the
expected crew safety of about 1 in 400 for the Space Shuttle. The goal of $1,000 per pound of payload to
low-Earth orbit is a 10-fold improvement from the current estimated cost of about $10,000 per pound for a
Shuttle payload. The Enterprise and Agency strategic plans currently state the goals for safety and launch
cost in terms of improving “by a factor of …”; earlier plans stated these goals in missions and dollars per
pound, which is how NASA has stated the 2nd Generation RLV Program Baseline Level 1 requirements.
17
   The nonadvocate review is performed by a team of highly knowledgeable specialists (internal and
external to NASA), outside the program or project’s advocacy chain, to provide the NASA Program
Management Council with an independent verification and evaluation of the program’s or project’s
readiness to proceed.

                                                      6
Guidance Needed for Validating Requirements

NASA had not established guidance for the preparation of necessary support
documentation and proper validation of proposed program requirements. Guidance, such
as that developed by the DOD, is needed to ensure that an appropriate authority validates
requirements prior to their approval.

DOD Instruction. DOD Instruction 5000.2, “Operation of the Defense Acquisition
System,” January 4, 2001, establishes a management framework for translating mission
needs and technological opportunities, based on validated mission needs and
requirements, into stable, affordable, and well-managed acquisition programs. The
process includes validation of mission needs and requirements and specifies that the
appropriate requirements authority shall validate requirements documents.

NASA Guidance. In accordance with NPG 7120.5A, Enterprise Associate
Administrators are responsible for defining requirements, and program managers are
responsible for supporting the development and definition of detailed requirements. The
NPG however does not address the validation of requirements including the timeliness of
analysis and adequacy of supporting documentation.

Similarly, although the NASA Systems Engineering Handbook, Special
Publication-6105, provides some guidance on the development of mission needs
statements and top-level requirements, the Handbook does not provide specific guidance
on the process of validating proposed Level 1 requirements. The Handbook also does not
contain guidance for program/project managers on the preparation of supporting
documentation and on the development of the rationale for justifying the appropriateness
of proposed requirements.

Concerns About the Requirements

Several NASA groups, both internal and external, have expressed concerns about the
validity and achievability of the Level 1 requirements for the 2nd Generation RLV
Program.

NASA Officials. NASA Headquarters and Marshall officials expressed concerns to us
about the feasibility of current requirements primarily because of the magnitude of
technology improvement needed to achieve them. Specifically, because they were
concerned about both the validity of the affordability requirement of $1,000 per pound to
low-Earth orbit and the metric (dollars per pound) used, Office of Aerospace Technology
officials did not approve proposed Level 1 requirements until Marshall agreed to initiate
a review of the affordability requirement and to consider restating it.18 In addition,
during the coordination of a draft of the NASA 2000 Strategic Plan, concerns by a senior
Headquarters official about the $1,000 per pound cost goal led to a temporary change in
18
 Office of Aerospace Technology officials stated they were most concerned about use of the dollars per
pound metric because of the need to provide numerous qualifiers such as launch rate, payload type, target
orbit, etc.

                                                    7
the affordability goal to $2,000 per pound. The Office of Aerospace Technology did not
agree with a $2,000 per pound goal and decided that it should remain $1,000 per pound
because it was the original stretch goal that was intended to be aggressive to promote
revolutionary technology development.

Program Office officials also had concerns about the feasibility of the proposed
affordability requirement. They explained that after NASA awarded the contracts under
NASA Research Announcement 8-30, the contractors requested that the Program Office
provide a set of NASA-approved, top-level requirements as a baseline to work toward.
Because of an overriding concern about a possible contractor work stoppage, Program
Office officials considered it necessary to establish official program requirements.
Therefore, despite concerns about the Level 1 requirements, the Program Office, the
Marshall Center Director, and the Associate Administrator, Office of Aerospace
Technology approved them.

Space Transportation Advisory Subcommittee. NASA established the Space
Transportation Subcommittee of the Aerospace Technology Advisory Committee19 to
provide independent oversight of the Agency’s Space Transportation programs. The
subcommittee challenged the achievability of the Program’s requirements during the
November 2000 and October 2001 meetings of the committee. Minutes of the meetings
included statements that the Program’s requirements were not realistic and were
impossible to meet in a 2nd Generation RLV and that the existing requirements
documents should be cancelled.20 The subcommittee provided written reports that
addressed these concerns to the committee and to the NASA Advisory Council.

Program Office Technical Staff. The Program Office’s technical staff identified
numerous risks to achieving the Level 1 requirements for safety and affordability and
entered them in the Program's risk management database.21 As of December 2001, the
staff had identified 279 risks, of which at least 110 were risks to achieving the Program’s
safety, reliability, and affordability requirements.




19
   The committee consists of 15 to 25 members and 75 to 153 associate members with a balanced
representation from industry, academia, and Government. The members have recognized knowledge and
expertise in scientific, technological, and programmatic fields relevant to Aerospace transportation.
20
   NASA had previously issued a requirements document for the 2nd Generation Space Transportation
Architecture in August 1999 and had included goals in the 2nd Generation RLV Program Formulation
Authorization document in February 2000. Both documents included the safety and affordability
requirements/goals that the Agency subsequently approved in November 2001 as Level 1 requirements.
21
   The risk management database is a computerized repository used to warehouse, plan, track, and report
program risks. All personnel associated with the Program have the responsibility and authority to identify
risks. The risk originator develops the risk statement, risk context, and initial estimates for the likelihood,
consequence, and timeframe of the risk.

                                                       8
The following table shows three validated22 Program risks with a high-risk exposure.23


               Safety and Affordability Risks With a High-Risk Exposure

      Risk            Risk Title                            Risk Statement1
     Number2
       1        Crew Escape Systems   Given the current state of the art in crew escape systems
                                      and the current reliability of main propulsion systems, the
                                      possibility exists that the Level 1 requirement of 1 in
                                      10,000 loss of crew may not be met.
       6        Lightweight, Low-Cost Because the current state of the art for lightweight, low-cost
                Composite Cryotanks3 cryotank composite materials is inadequate, the possibility
                                      exists that the Level 1 requirement of $1,000 per pound
                                      launch cost may not be met.
      10        Power Systems         Given the current state of the art of power systems in the
                                      areas of fault tolerant power architecture, nontoxic power
                                      generation, advanced peak power source, energy storage,
                                      and distribution, the possibility exists that the Level 1
                                      requirements of 1 in 10,000 loss of crew and cost goal of
                                      $1,000 per pound may not be met.

1
  The “Risk Information Sheet” includes a risk statement that explains the risk.
2
  A sequential risk number is assigned to each identified risk in the database.
3
  Cryotanks are fuel tanks capable of maintaining liquid oxygen and/or hydrogen at extremely low
temperatures--at least 160 degrees below 0 degrees Celsius.

We recognize that establishing appropriate requirements will not eliminate all risks on a
program. On the other hand, not ensuring the appropriateness and viability of
requirements can significantly increase programmatic risks.

Programmatic Effects of Requirements

Invalid or unachievable Level 1 requirements can jeopardize development of appropriate
lower-level requirements, cause an inappropriate architecture selection, lead to cost and
schedule growth, and produce a launch vehicle that is not commercially viable.

Lower-Level Requirements. Level 1 requirements form the basis for more detailed
requirements in program and project documents, which, in turn, provide a framework for
management decisions and activities. NPG 7120.5A states that requirements
management entails the decomposition of higher-level requirements into implementable
packages and communication of the more specific requirements to the implementing
projects that



22
 Validated risks are those that have been approved by the Program and project risk management boards.
23
 Risk exposure, the product of the likelihood and consequence of occurrence, is used to classify and
prioritize risks for reporting and management purposes. The Program classifies the risk level as high,
moderate, or low.

                                                    9
support the Program. Therefore, inappropriate Level 1 requirements can lead to
inappropriate Levels 2 and 3 requirements in the Program’s and projects’ systems
requirements documents.

Architecture Selection. The current Level 1 requirements reflect general launch needs
that the 2nd Generation RLV is intended to satisfy. Level 1 requirements dictate the
architectural design leading to full-scale development of the 2nd Generation RLV. The
process of assessing the cost and performance trade-offs of the 2nd Generation RLV
architecture will lead to a set of Level 2 system requirements that will further define the
2nd Generation RLV architecture requirements. If the current Level 1 requirements are
inappropriate, any resulting architectural design also could be inappropriate.

Cost and Schedule. If the cost-per-pound (affordability) requirement of $1,000 is
unrealistically low, because of the technology advances needed to reach such a
requirement, it may not be achievable under the current cost and schedule constraints.
Similarly, if the launch cost requirement is unnecessarily low compared to the projected
market prices of competitive launchers over the next 2 decades, cost and schedule would
be adversely affected again. In either case, additional funds and time would be required
to meet requirements that are unrealistic or inappropriate.

Competitive Vehicle. Besides a manned version of the 2nd Generation RLV, the
Program may develop an unmanned version. An unmanned vehicle would compete with
expendable launch vehicles, which are becoming less costly. If the cost per pound of
$1,000 is higher than the average cost per pound on commercial expendable launch
vehicles, then the 2nd Generation RLV would not be competitive. Although NASA
officials expected the current trend of reduced launch costs to continue, it is not clear
how much launch costs for expendable launch vehicles will decrease in the next 2
decades when a 2nd Generation RLV may be operational. This uncertainty contributes to
the difficulty in establishing an appropriate affordability requirement for the 2nd
Generation RLV. Appendix E contains details on current and expected payload launch
costs.

Conclusion

In view of the lack of analytical support for the baseline Level 1 requirements and the
acknowledged concerns of cognizant officials, NASA’s approval of the requirements was
premature. Because of the questionable validity of the two primary Program
requirements, safety and affordability, NASA should verify the appropriateness and
achievability of the baseline Level 1 requirements and revise them, if necessary. We
acknowledge that the Agency’s plans for review may eventually lead to more refined
requirements.24 However, the requirements at any given time should be supportable.



24
  On May 2, 2002, Program and Marshall officials approved Revision A to the baseline Level 1
requirements and submitted it to NASA Headquarters for final approval. The proposed revision would
reduce the safety and affordability requirements, making them much more achievable.

                                                 10
Recommendations, Management’s Response, and Evaluation of
Response

1. The Associate Administrator for Aerospace Technology, in coordination with
   the Marshall Center Director, should promptly perform analyses to support the
   validation or revision of the Level 1 requirements for the 2nd Generation RLV
   Program.

Management’s Response. Concur. The Office of Aerospace Technology approved
proposed Level 1 Requirements prior to completion of detailed analyses needed to
determine their validity and achievability. Management recognized there were
deficiencies in the process for approving the initial Level 1 requirements and has
instituted a more thorough validation process for the current iteration of the requirements,
Revision A. The Program is performing further analyses of the Level 1 requirements.
Additionally, the Agency identified the Executive Council as the requirements
discrepancy resolution forum. These actions should be completed along with the planned
completion of the SLI Systems Requirements Review in March 2003. The complete text
of management’s response is in Appendix F.

Evaluation of Management's Response. Management’s planned actions are responsive
to the intent of the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.
Management’s response included additional comments to the finding in the report. We
address selected management comments in Appendix G.

2. The NASA Chief Engineer should establish and include in Agency directives
   (NPG 7120.5A, Special Publication-6105, and the NPG on Systems Engineering
   currently under development) guidance that:

   •   requires the approval authority to verify that proposed requirements are
       appropriate and reasonably achievable within available resources before
       approving the requirements,

   •   specifies responsibility and requirements for preparing supporting
       documentation and for validating proposed requirements, and

   •   requires Enterprises and Centers to establish appropriate implementing
       guidance and procedures.

Management’s Response. Concur. The Office of the Chief Engineer will attempt to
incorporate the recommended guidance into the revision of NPG 7120.5 now being
drafted. If unable to accomplish this, interim guidance will be issued not later than
March 2003, pending publication of the next revision of the NPG (published in
approximately October 2003).



                                            11
Evaluation of Management's Response. Management's planned actions are responsive
to the recommendation. Management stated during our discussions that more detailed,
implementing guidance on requirements validation will be included in the new Systems
Engineering NPG now being drafted and scheduled for publication in October 2003.

The recommendation is resolved but will remain undispositioned and open until
corrective actions are completed.




                                         12
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate Space Launch Initiative (SLI) planning and
management. Specifically, we planned to assess the adequacy of:

   •   requirements determination and program planning, including metrics for
       measuring and reporting progress;
   •   decision criteria for major milestones;
   •   program schedule and funding, including planned reserves; and
   •   plans for risk reduction and related metrics.

This report identifies a condition regarding requirements determination that warrants
timely action by NASA management. Conditions relative to the other objectives may be
addressed in a separate report as needed.

Scope and Methodology

The audit included a review of Government and Agency guidance for strategic planning
and program management. We reviewed NASA and Enterprise Strategic Plans and SLI
Program documents. In addition, we interviewed program officials to understand the
objectives and current status of the program. We did not assess the reliability of
computer-processed data, because we did not rely on it to achieve our objectives.

Management Controls Reviewed

We reviewed the following management controls:

   •   Office of Management and Budget Circular A-11, “Preparation and Submission
       of Budget Estimates,” revised November 11, 2001.

   •   NASA Procedures and Guidelines (NPG) 1000.2, “NASA Strategic Management
       Handbook,” February 2000, enables the Agency to establish strategy, make
       decisions, allocate resources, and manage programs safely, effectively, and
       efficiently.




                                           13
Appendix A

   •   NPG 7120.5A, “NASA Program and Project Management Processes and
       Requirements,” April 3, 1998, governs formulation, approval, implementation,
       and evaluation of all NASA programs and projects.

   •   MSFC-HDBK-3173, “Project Management and System Engineering Handbook,”
       May 30, 2001, provides the basic processes and general guidance for the life
       cycle of all programs and projects managed at Marshall Space Flight Center
       (Marshall).

We determined that management controls for determining primary requirements for
programs and projects needed to be strengthened as discussed in the report.

Audit Field Work

We performed field work for this portion of the audit from July 2001 through June 2002
at NASA Headquarters and Marshall. We conducted the audit in accordance with
generally accepted government auditing standards.




                                          14
                 Appendix B. Summary of Prior Audit Coverage

The Office of Inspector General has issued four reports that relate to the audit work on
the Space Launch Initiative. These reports are summarized below (see also
www.hq.nasa.gov/office/oig/hq/issuedaudits.html).

IG-01-021, “X-37 Technology Demonstrator Project Management,” March 30,
2001. The X-37 vehicle is an advanced technology flight demonstrator that NASA will
use as a platform for flight experiments to validate and mature technologies that lower
the cost and improve the performance of future Earth-to-orbit or in-space transportation
systems. We found several weaknesses in NASA’s project management and
recommended that corrective actions be taken to address inadequate planning and
funding for X-37 launch requirements, use of a tailored Earned Value Management
System25 by the contractor, and deficiencies in risk management by NASA officials.
Management concurred and has initiated or completed corrective actions on all
13 recommendations.

IG-00-029, “X-34 Technology Demonstrator,” March 30, 2000. The $200 million
X-34 Project was one of several existing and planned technology demonstrator
(X-Vehicle) programs the Agency pursued to mature technologies needed for the
next-generation reusable launch vehicle. To evaluate NASA’s planned use of X-34
technologies, we reviewed strategic planning and the role the X-34 was to play in
meeting Agency Space Transportation technology requirements. We recommended that
NASA improve strategic planning, complete program documentation in a timely manner,
revalidate flight test requirements, and eliminate unnecessary flight tests or engines.
Management concurred and has initiated or completed corrective actions on the 16
recommendations.

IG-99-052, “X-33 Cost Estimating Processes,” September 24, 1999. NASA used a
cooperative agreement with a commercial firm for Phase II of the X-33 program to
design, build, and fly a test vehicle. NASA did not prepare an independent Government
cost evaluation to assess cost reasonableness and cost risk for the program. Further,
NASA did not include a risk analysis to quantify technical and schedule uncertainties.
We recommended that NASA improve its evaluation processes to ensure that
decisionmakers are provided complete and accurate information, that sufficient resources
are available, and that the final price is fair and reasonable. Further, the X-33 Program’s
estimate to complete should be updated to reflect cost uncertainties and determine how
remaining work will be funded. Management concurred with all four recommendations
and has completed corrective actions on three recommendations.26
25
   NASA Policy Directive 9501.3, "Earned Value Performance Management," revised August 3, 2002,
establishes the requirement to apply earned value performance management to significant NASA contracts
to ensure that contractor management systems provide the contractor and the Government project managers
with accurate data to make responsible decisions.
26
   Although NASA cancelled the X-33 and X-34 Programs and incorporated the X-37 Program into the 2nd
Generation RLV Program (see footnotes 1 and 2), many recommendations in the related audit reports
remain valid because they relate to systemic weaknesses rather than specific project weaknesses.

                                                  15
Appendix B

IG-99-001, “X-33 Funding Issues,” November 3, 1998. We evaluated NASA’s X-33
funding concept to determine whether it adversely affected Agency reports and financial
statements and whether it complied with congressionally mandated fund controls
including the Anti-deficiency Act. NASA did not record obligations of funds in a timely
manner, resulting in potential violations of fiscal statute. The Marshall Space Flight
Center (Marshall) had unrecorded year-end obligations, costs, and liabilities totaling
$22 million in fiscal year 1996 and $34 million in fiscal year 1997. We recommended
that NASA review the funding and payment practices used on the X-33 Program and
perform corrective actions to ensure that Marshall and Agency year-end financial reports
accurately disclose the financial status of the X-33 program, including any contingent
liabilities. NASA concurred with the two recommendations but has not completed
corrective actions.




                                           16
              Appendix C. Government Level 1 Requirements

NASA developed Level 1 requirements for the 2nd Generation Reusable Launch Vehicle
from an understanding of NASA, DOD, and commercial mission needs, and from
deficiencies in the existing fleet of launch vehicles. NASA published these requirements
in the Level 1 requirements document, effective September 4, 2001. An excerpt of the
document, Section 7.0, “Government Level 1 Requirements” follows:
               [A10] Comply with all applicable NASA, Department of Defense
              (DOD), and civil flight safety requirements as defined in [A11] through
              [A14] and in accordance with the Human Rating Requirements, JSC –
              28354, as applicable.
              [A11] Assure public safety.

              [A12] Achieve a probability of loss of crew for the total flight profile
              of a mission.
              a. Threshold — must equal a probability of 1/10,000 or less.
              b. Objective— should equal a probability of 1/10,000 or less.

              [A13] Assure safety of personnel on the ground (transportation
              employees and customers).

              [A14] Assure safety of high value assets.

               [A30] Deliver payloads into a low-earth circular orbit, as
               described in the NASA Design Reference Missions document.
               a. Threshold — must provide a recurring operational cost of
               $1,000/pound or less.
               b. Objective — should provide a launch price of $1,000/pound or
               less.

              [A40] Achieve a probability of loss of mission throughout the design
              life of the 2nd Generation RLV [reusable launch vehicle] architecture.
              a. Threshold — must provide a probability of 1/100 or less.
              b. Objective — should provide a probability of 1/200 or less.

              [A50] Provide the capability of supporting the Government missions
              defined in section 6.0 above.
              a. Threshold — must provide the capability of performing all primary
              missions at IOC [initial operating capability].
              b. Objective — should provide the capability of performing secondary
              missions at IOC.

              [A60] Achieve a probability of launching a Government payload
              within its scheduled launch opportunity.
              a. Threshold — must exceed a 90-percent probability that a payload
              will be launched within its specified opportunity.
              b. Objective — should exceed a 95-percent probability that a payload
              will be launched within its specified opportunity.




                                                17
Appendix C


             [A70] Provide a growth path to support the Government secondary
             missions that cannot be supported initially.
             [A80] Provide an evolutionary growth path that will enable the future
             commercial development of space.
             [A90] Provide a viable growth path to support the Government
             evolutionary mission to enable the future human and robotic
             exploration of space by FY 2017.
             [A100] Provide an evolutionary growth path to support future DOD
             launch needs.




                                              18
      Appendix D. Origin of Safety and Affordability Requirements

The Level 1 safety and affordability requirements for a 2nd Generation Reusable Launch
Vehicle (RLV), approved in November 2001 by the NASA Office of Aerospace
Technology, are essentially a restatement of the goals contained in the Agency and
Enterprise Strategic Plans (see footnote 15), the requirements established for the
Integrated Space Transportation Plan, and the major goals contained in the Program
Formulation Authorization Document. Marshall Space Flight Center and NASA
Headquarters officials had no documented support for the appropriateness and
achievability of the goals/requirements contained in all of the documents above.
Agency Strategic Goals. Agency strategic goals for safety and affordability,
characterized as “stretch” goals, were established by a former NASA Administrator
based on a vision for safe and affordable access to space. NASA officials stated that the
affordability goal (reducing the cost of access to space from $10,000 to $1,000 per pound
to low-Earth orbit) was established in the mid-1990’s by the NASA Administrator as a
target. Officials maintained that the affordability goal was always recognized as an
optimistic, “stretch” goal that might not be achievable in the near term. Similarly,
officials stated that the Agency’s safety goal (loss of crew of 1 in 10,000 missions) was
established by the Administrator in 1999.

Integrated Space Transportation Plan Level 1 Requirements. In August 1999, the
NASA Chief Engineer issued a Level 1 Requirements document for the 2nd Generation
Space Transportation Architecture. The purpose of the document was to establish
Level 1 requirements for the Integrated Space Transportation Plan and for conducting
associated tasks for Phase III of the NASA Space Transportation Architecture Studies.
This effort represented the initial step in requirements/systems definition, technology
prioritization, and technology development for the Integrated Space Transportation Plan.
The document included requirements for safety (loss of crew of 1 in 10,000 missions)
and affordability (reduce the cost of payloads to low-Earth orbit from $10,000 to $1,000
per pound) that NASA officials stated were based primarily on the Space Transportation
goals presented in the Agency and Enterprise Strategic Plans.

Program Formulation Authorization. The Associate Administrator for Aerospace
Technology issued the 2nd Generation RLV Program Formulation Authorization
document, February 10, 2000, to begin the formulation process. The formulation
authorization document includes safety and affordability goals that are consistent with
the Agency and Enterprise Strategic Plans.




                                            19
**Details of payload launch costs information omitted**




                                          20
Appendix F. Management’s Response




                21
Appendix F




                  See Appendix G,
                  OIG Comment 1




                  See Appendix G,
                  OIG Comment 2




                  See Appendix G,
                  OIG Comment 3




                  See Appendix G,
                  OIG Comment 1




                  See Appendix G,
                  OIG Comment 2




             22
     Appendix F




                  See Appendix G,
                  OIG Comment 4




23
           Appendix G. Evaluation of Management's Comments

The Office of Aerospace Technology response (see Appendix F) included comments
relative to the finding in the report. Our evaluation of those comments follows:

Management's Comments. Management agreed that analytically validated Level 1
Requirements are critical for development/acquisition programs. However, the SLI
Program is a unique, focused technology development effort responsible for establishing
Level 1 Requirements through an iterative process. The SLI Program does not fit within
a standard Agency program mold and, therefore, latitude should be afforded during this
unique requirements definition phase.

1. OIG Comments. Although we understand the circumstances that led to the approval
of the initial Level 1 Requirements in November 2001, we maintain our position that
such approval was premature in the absence of adequate supporting documentation and a
thorough validation process. Further, the iterative nature of the requirements
development process during program formulation is typical of Agency programs and is
not unique to the 2nd Generation RLV Program. Therefore, we reemphasize that approval
of each Level 1 Requirements iteration should be based on an adequate supporting
documented analysis by the Program and projects. The documentation is essential in
order for the requirements approving authority to perform an effective review and
validation of proposed requirements.

Management's Comments. The audit report questions the lack of analysis supporting
the validity and achievability of the approved requirements. It is the position of the
Office of Aerospace Technology that the level of analysis performed by the Space
Transportation Architecture Studies, and contractors under two NASA research
announcements was adequate to support the conditional approval of the Level 1
Requirements in November 2001 as an initial starting point in developing final
requirements. Further, contractors were leery of investing resources toward this effort
without a firm NASA-level commitment.

2. OIG Comments. Our primary concern with the initially approved Program Level 1
Requirements was the lack of a credible supporting analysis for the safety and
affordability requirements. The analysis identified by management does not provide
sufficient support for validation and approval of the Level 1 requirements. Further,
although responsible Agency officials acknowledged their concerns about the validity of
the proposed requirements, neither their level of confidence nor the conditional nature of
the Office of Aerospace Technology approval was evident in the requirements document.
When such concerns exist, we believe requirements approval authorities should disclose
their level of confidence in achieving the proposed requirements and state in the
requirements document the conditional nature of their approval. Program and project


Appendix G

                                            24
managers may be reluctant to make such candid disclosures, but it is critically important
to ensure that subsequent programmatic decisions are valid. Finally, the need to obtain
contractor participation does not justify issuance of an unsupported requirements
document.

Management's Comments. The focus in the early phase of the Program was simply to
significantly reduce cost and increase reliability of a 2nd Gen RLV rather than to specify a
level of improvement. Therefore, providing the best information available at the time
presented little if no risk to the Agency.

3. OIG Comments. Because of the level of concern that existed both within and outside
the Agency regarding the validity of the initial Program requirements, we do not consider
the data used by NASA as the best information available. Program requirements such as
safety and affordability are directed to projects and subsequently to contractors that make
cost and schedule decisions based on these requirements. Further, approving unrealistic
requirements without documentation to show they are reasonably achievable with
existing resources can create false expectations by the Congress and by Agency
stakeholders. Therefore, we believe the approval of unvalidated and unrealistic
requirements creates significant programmatic and credibility risk to the Agency.

Management's Comments. Management decided not to relax the payload cost
requirement of $1,000/lb. to $2,000/lb. in response to concerns by a senior Headquarters
official. Management explained that the rationale for rejecting the request was not the
value of the requirement as much as it was the nebulous nature of the metric itself that
necessitates qualifiers such as launch rate, payload type, target orbit, etc.

4. OIG Comments. Based on subsequent discussions with Agency officials, we revised
the wording in the audit report to reflect the management’s clarification.




                                            25
                      Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AE/Chief Engineer
HQ/AI/Associate Deputy Administrator
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/R/Associate Administrator for Aerospace Technology

NASA Advisory Officials

Chair, NASA Advisory Council
Chair, Aeronautics and Space Transportation Technology Advisory Committee

NASA Centers

JSC/AA/Director, Johnson Space Center
KSC/AA/Director, Kennedy Space Center
KSC/CC/Chief Counsel, Kennedy Space Center
MSFC/DAO1/Director, Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                         26
                                                                    Appendix H

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         27
                NASA Assistant Inspector General for Audits
                             Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Final Report on Audit of the Space Launch Initiative:
              Primary Requirements for a 2nd Generation Reusable Launch
               Vehicle


Report Number:                               Report Date:

               Circle the appropriate rating for the following statements.

                                            Strongly                                Strongly
                                             Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the           5         4       3          2          1       N/A

   point.
3. We effectively communicated the             5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

       Excellent             Fair
       Very Good             Poor
       Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                                  No: ______
Name: ____________________________


Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Dennis E. Coldren, Program Director, Space Flight Audits

Clara L. Seger, Audit Program Manager

James W. Linville, Auditor-in-Charge

Kenneth E. Sidney, Auditor

Nancy C. Cipolla, Report Process Manager

June C. Glisan, Program Assistant
